OIG Audit Report GR-30-08-002

Office of Justice Programs Award to Stop the Silence: Stop Child Sexual Abuse, Inc. Grant Number 2007-DD-BX-K009

Audit Report GR-30-08-002


July 2008
Office of the Inspector General


Executive Summary


 The Office of Justice Programs (OJP), Bureau of Justice Assistance (BJA), uses the Edward Byrne Memorial State and Local Law Enforcement Assistance Grant Program (Byrne Grants) to improve how the criminal justice system functions and assist communities with preventing drug abuse and crime. In September 2007, BJA awarded Stop the Silence: Stop Child Sexual Abuse, Inc. (Stop the Silence) grant number 2007-DD-BX-K009, totaling $424,676. Under the grant, Stop the Silence was to develop a comprehensive training course for court personnel on issues pertaining to child sexual abuse and trauma. 
 We conducted this audit to determine whether costs claimed under the grant are allowable, reasonable, and in accordance with applicable laws, regulations, guidelines, and the terms and conditions of the award. Although Stop the Silence adequately supported all of its grant charges, we found that it: 

 Did not report the financial status of the award accurately; 
 Drew down at least $140,000 in excess grant funds, which was subsequently remitted back to OJP; 
 Earned over $700 in interest income from the excess drawn down grant funds that should be remitted to the U.S. Department of Health and Human Services; and 
 Allocated $9,273 in unallowable costs to the grant. 

Our report makes 10 recommendations. We discussed the results of our audit with Stop the Silence and have included their comments in the report as applicable. 



 




Return to OIG Home Page